U.S. Department of Labor                Office of Inspector General
                                        Washington, DC. 20210




      March 3, 2006


      MEMORANDUM FOR:            EMILY STOVER DEROCCO
                                 Assistant Secretary for Employment
                                  and Training




      FROM:                      ELLIOT P. LEWIS
                                 Assistant Inspector General
                                  for Audit

      SUBJECT:                   One Individual in Possession of Multiple
                                 Hurricane Katrina Disaster Unemployment
                                 Assistance Claims in Louisiana
                                 Management Letter No. 06-06-005-03-315

      SUMMARY

      We have identified eight potentially fraudulent Hurricane Katrina-related Disaster
      Unemployment Assistance (DUA) claims in Louisiana. An individual had in his
      possession eight debit cards totaling over $15,000 that were issued by the State
      under various names and Montana addresses. We notified the State of these
      claims on February 6, 2006, and, based on our notification, the State informed us
      that it had stopped payments.

      We also referred these claims to the OIG’s Dallas Office of Labor Racketeering
      and Fraud Investigations (OLRFI).

      INTRODUCTION

      Normally, a Management Letter is provided to be read in conjunction with an
      accompanying audit report. However, due to the proactive nature of our current
      work related to Hurricane Katrina, we will be issuing Management Letters to
      inform the Department, in this case, the Employment and Training Administration
      (ETA), of issues/problems we believe should be disclosed to help the
      Department’s programs operate efficiently and effectively while reducing the
      possibility of fraud, waste, and abuse.
BACKGROUND

On August 29, 2005, Hurricane Katrina hit the Louisiana, Mississippi, and
Alabama coasts resulting in a national disaster. The State of Louisiana was
inundated with DUA claims, for which it issued payments primarily through a
bank via debit cards.

On Friday, February 3, 2006, The Dallas Regional Audit Office (RAO) received a
call from the Sacramento, California, police department indicating that they had
arrested an individual who had in his possession eight State of Louisiana
JPMChase debit cards, all with different names and Montana addresses. On
Monday, February 6, 2006, the Sacramento police department provided the
Dallas RAO with the names on the debit cards and the debit card numbers.

This Management Letter is an interim reporting mechanism and should be read
with the understanding that only after the information in this Management Letter
is evaluated/investigated by the OIG’s OLRFI can a determination be made as to
the legitimacy of these unemployment claims.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective is to assist the states to ensure that only legitimate DUA claims are
paid and that fraudulent claims are terminated as soon as possible to reduce the
drain on the Federal Emergency Management Agency funds used to pay DUA.

Using the information provided by the Sacramento police department, we
followed up with JPMChase Bank to obtain debit card status, analyzed Louisiana
DUA data file information we had in our possession, and obtained up-to-date
benefits information from the Louisiana Department of Labor. We determined
total payments on these eight debit cards, notified the State of the potentially
fraudulent nature of these claims, and turned over our information to the OIG’s
OLRFI.

This work was conducted in conjunction with the President’s Council on Integrity
and Efficiency (PCIE) as part of the examination of relief efforts provided by the
Federal Government in the aftermath of Hurricanes Katrina and Rita. Upon
issuance in final, a copy of this Management Letter will be provided to the PCIE
Homeland Security Working Group, which is coordinating Inspectors General
reviews of this important subject.

RESULTS

One individual had in his possession eight DUA debit cards issued under
different names and Montana addresses that totaled over $15,000 for the weeks
ending September 10, 2005, through January 21, 2006. The State paid benefits
for the entire period for all but one of the claims. It stopped payment on that



                                         2
claim after the week ending December 10, 2005, because the claimant failed to
provide requested information.

The following is a summary of the eight DUA claims:

                      LOUISIANA DUA PAYMENTS IN
                     POSSESSION OF ONE INDIVIDUAL

                   First            Last           Number of
   Claim        Week Ending      Week Ending        Weeks            Total
  Number         Date Paid        Date Paid          Paid            Paid
     1            9-10-05          1-21-06            20            $1,960
     2            9-10-05          1-21-06            20            $1,960
     3            9-10-05          1-21-06            20            $1,960
     4            9-10-05          1-21-06            20            $1,960
     5            9-10-05          1-21-06            20            $1,960
     6            9-10-05         12-10-05            14            $1,372
     7            9-10-05          1-21-06            20            $1,960
     8            9-10-05          1-21-06            20            $1,960
  TOTAL                                                             $15,092

We provided the State the names and Social Security Numbers of the potentially
fraudulent claims, and the State has notified the Dallas RAO that it has stopped
the claims.

We also provided the claims information to the OIG’s OLRFI.

RECOMMENDATION

We recommend the Assistant Secretary for Employment and Training follow up
with the State to ensure these claims have been stopped and overpayments
established.

AGENCY RESPONSE

In response to the draft Management Letter, the Assistant Secretary for
Employment and Training stated that the Louisiana Department of Labor advised
ETA's Dallas Regional Office that it has determined the payments made on these
claims to be improper, and has established overpayments. The Assistant
Secretary’s response is included in its entirety as an Attachment.

OIG CONCLUSION

Based on the Assistant Secretary’s response, we consider the recommendation
resolved. It will be closed upon receipt of documentation to support the State’s
actions to establish the overpayments, as described in the response.


                                        3
This final Management Letter is submitted for appropriate action. We request a
response within 60 days describing actions taken in response to the
recommendation.

If you have any questions concerning this Management Letter, please contact
John Riggs, Regional Inspector General for Audit, in Dallas at (972) 850-4003.

Attachment

cc:   Steven Law
      Deputy Secretary

      Phyllis Newby
      ETA Audit Liaison




                                       4
5
